w

D STATES COURT OF AREALS
THIRD CIRCUIT
LynnZ. Smith
294A Malvern Court East
Lakewood, New Jersey 08701
LYNN Z. SMITH, ET AL
Court of Appeals Docket #: 20-1614
On Appeal from: 2-18-cv-17515

Plaintiff - Appellant
v.
DOBIN, ET AL
Defendant - Appellee

CERTIFICATE OF SERVICE
Lynn Smith, of full age, hereby certifies as follows: 1.1 am one of the plaintiffs in
the above matter and on June 22,2020,1 caused:
a) This letter brief; and
b) this Certification of Service to be served through ECF FILER, and email and on
this date.
I hereby certify that the foregoing statements made by me are true. I am aware that
should any of the foregoing be willfully false, I am subject to punishment.
Sincerely,

Lynn Smith
DATED: June 22, 2020

20

AFFIDAVID OF VERIFICATION
Brian Smith, 294A Malvern Court East, Lakewood, New Jersey 08701, of full
age, hereby certifies as follows:
1. The information in the support letter to the Complaint of Misconduct and
Disability submitted to the Judicial Council of the Third Circuit is true and accurate, an
honest and straightforward attempt to represent the facts and events regarding Judge
Salas, the Defendants in Case #17515-RBK-JS, and others.
I hereby certify that the foregoing statements made by me are true and accurate. I
am aware that should any of the foregoing be willfully false, I am subject to punishment.

1L

Brian Smith
DATED: March 3, 2021

